INFORMATION SECURITY PROGRAM
   National Transportation Safety Board

       Report Number: FI-2006-001
       Date Issued: October 7, 2005
U.S. Department of                                                                            Office of Inspector General
Transportation                                                                                Washington, D.C. 20590
Office of the Secretary
of Transportation



October 7, 2005


The Honorable Mark V. Rosenker
Acting Chairman
National Transportation Safety Board
490 L’Enfant Plaza, SW
Washington, DC 20594

Dear Acting Chairman Rosenker:

This report presents the results of our audit of the National Transportation Safety
Board’s (NTSB) information security program. The Federal Information Security
Management Act (FISMA) of 2002 requires each agency to develop, document,
and implement an agencywide information security program to protect the
information and information systems that support the operations and assets of the
agency.

This is the second year that small agencies such as NTSB are required to report to
the Congress on their information security program.1 NTSB is responsible for
investigating accidents in all transportation modes to determine the cause, and
recommend changes to improve safety and reduce the likelihood and
consequences of future accidents. NTSB plays a critical role in ensuring a safe
transportation system.

To support its investigation operations nationwide, NTSB has implemented an
information technology (IT) infrastructure, including communication networks,
computer laboratories, and various software application systems at NTSB’s
Headquarters, 10 regional offices, and its Academy. This IT infrastructure enables
NTSB’s investigators to gather accident evidence, analyze information from voice
and data recorders, assist victims’ family members, and provide accident


1
    FISMA requires 24 large Federal agencies to report annually to the Congress on their information security programs.
    Last year the Office of Management and Budget expanded FISMA reporting requirements to all Departments and
    agencies that are subject to the Paperwork Reduction Act of 1995, including NTSB.

Report No. FI-2006- 001
                                                                                                            2


investigation results to the American public. NTSB invested about $2.7 million in
IT system operations in Fiscal Year (FY) 2005.

Responding to FISMA requirements, the Department of Transportation’s Office of
Inspector General (OIG) performed an audit of NTSB’s information security
program last year for the first time. We found that NTSB lacked basic information
security elements such as a system inventory, process to certify and accredit
systems security, mechanisms to identify network vulnerabilities, and ability to
respond to security incidents in a timely manner.

As a result, we reported to NTSB that its information security program should be
reported to OMB as a material weakness under the Federal Managers’ Financial
Integrity Act (FMFIA) of 1982 and recommended immediate corrective actions.2
NTSB management had agreed to take aggressive actions, including appointment
of a Chief Information Officer (CIO) to lead the effort.

This year, we did a follow-up review of NTSB’s information security program and
network security. The objectives were to determine whether (1) NTSB has made
adequate progress in implementing the planned actions, (2) network connections
to outside entities, including the Internet, are adequately protected to prevent cyber
attacks, and (3) internal network computers are properly configured to reduce the
risk of attacks.

We conducted the performance audit in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States, and performed such tests as we considered necessary to detect
fraud, waste, and abuse. Our input to NTSB’s annual FISMA report to OMB is in
Enclosure 1. Our scope and methodology are described in Enclosure 2.


RESULTS IN BRIEF
While a CIO was appointed in September 2004, NTSB has made limited progress
in enhancing its information security program. Our review of the network security
controls also identified a significant number of vulnerabilities that exposed NTSB
computers to unauthorized access from both inside and outside of the agency.
During the audit, our staff was able to crack the password in an Internet router that
is used to control access from the Internet. In addition, we were able to obtain
sensitive investigation information from NTSB computers, including real-time
audio recording between air traffic controllers and pilots during an accident.


2
    OIG Report Number FI-2004-097, “NTSB Information Security Program,” September 28, 2004. OIG reports can be
    found at www.oig.dot.gov.


Report No. FI-2006- 001
                                                                                              3


Accordingly, it is our opinion that NTSB’s information security program remains
a material weakness to its safety investigation mission.

The following summarizes what we found.

NTSB did not make a strong commitment to implement an agencywide
information security program as promised. The following summarizes the
status of NTSB’s corrective actions (see Table 1).

  Table 1. Delays in Implementing Planned Corrective Actions
 Recommended Corrective Actions                    Target Completion   Current Status as of
                                                                       September 30, 2005
 1. Appoint a Chief Information Officer                                Completed
 2. Implement an information security program
 2a. Provide security training to employees        December 31, 2004   82% completed
 2b. Complete an information systems inventory     December 31, 2004   Open
 2c. Establish a schedule to have systems security December 31, 2004   Open
     certified and accredited
 2d. Provide guidelines for developing security    December 31, 2004   Open
     plans
 2e. Document security weaknesses and              December 31, 2004   Open
     corrective actions
 3. Enhance network security
 3a. Correct high- and medium-risk network         December 31, 2004   85% completed
     vulnerabilities identified
 3b. Configure and patch computers securely        March 31, 2005      Open
 3c. Scan networks for potential vulnerabilities   June 30, 2005       Open
     and deploy an intrusion-detection system


Until an agencywide information security program is established, NTSB
management cannot assure the public that its computer systems are adequately
secured to ensure integrity, confidentiality, and availability of its safety
investigation mission.

According to the CIO, the delay in implementing these corrective actions was
partially due to the inability to secure funding when competing with other
operational needs. During the first quarter of FY 2005, the CIO initiated action to
award a contract to help finalize the NTSB system inventory, develop security
policies and procedures, and conduct security certification reviews on selected
systems. However, the funding was not approved until June 2005—after the


Report No. FI-2006- 001
                                                                                                                4


newly appointed NTSB Managing Director became aware of limited progress in
this area. NTSB awarded a contract in August and the actual contract work started
September 13, 2005—almost a year later than originally planned.

NTSB computers are vulnerable to unauthorized access from both inside and
outside of the agency. We found weak password encryption in NTSB’s routers3
and vulnerabilities in its computers. As a result, we were able to take control over
the routers and could have reconfigured them to allow unauthorized entities to
access NTSB computers from the Internet. In addition, like last year, we obtained
sensitive information from NTSB computers without being detected.

      Connections to the Internet were not adequately protected. Employees are
      allowed to access NTSB computer systems from the Internet. NTSB relies on
      its network routers to prevent unauthorized access to its internal network and
      direct legitimate network traffic between NTSB Headquarters and regional
      offices. Although its routers were reasonably configured, they did not have
      proper password protection, as required by Government standards. NTSB
      provided us with the configuration files that contained the router passwords.
      Even though the passwords were encrypted for security protection, we were
      able to easily crack all passwords. As a result, we gained total control (root-
      level access) over its Internet router from the Internet. As an insider, we could
      also gain total control of other internal routers. With root-level access to all
      NTSB routers, we could have changed configuration settings to open paths
      from the Internet to allow unauthorized entities to access NTSB’s private
      network. Once inside the private network, the entities could obtain sensitive
      information from NTSB computers or launch attacks to disrupt its operations.

      Computers hosted on the private network were vulnerable. We used a
      commercial scanning software tool to perform a vulnerability assessment of
      computers hosted on the NTSB network. We found over 1,400 potential high-
      risk vulnerabilities, which could allow insiders—NTSB employees,
      contractors, and business associates—to gain unauthorized access to NTSB
      business information stored on these computers. For example, our staff was
      able to obtain sensitive investigative information from these computers
      including real-time audio recording between air traffic controllers and pilots
      during an accident.

      Last year, we performed a similar but more limited vulnerability check and
      found hundreds of high-risk vulnerabilities.4 We recommended that, in

3
    Routers are network devices. They are used to screen network activities to prevent unauthorized access to an
    organization’s internal networks and direct legitimate network traffic among its internal networks.
4
    Last year our network assessment performed about 400 vulnerability checks versus more than 1,200 vulnerability
    checks performed this year.


Report No. FI-2006- 001
                                                                                    5


   addition to correcting these vulnerabilities, NTSB management obtain proper
   tools so that it could assess network vulnerabilities regularly. NTSB has
   corrected about 85 percent of the high-risk vulnerabilities we identified last
   year and procured a software tool for vulnerability assessment. However, it
   did not have trained staff to utilize the tool and accordingly was not aware of
   these additional high-risk vulnerabilities. Conducting frequent network
   vulnerability assessments is critical because new vulnerabilities, such as the
   ones exploited by computer viruses, are uncovered daily.

   Security incident monitoring and response capabilities are still lacking.
   Like last year, our unauthorized access to NTSB computers went undetected
   because NTSB has not implemented an intrusion-detection system to identify
   potential security breaches on its network. To secure a computer network,
   management needs to not only patch/eliminate vulnerabilities in computers but
   also develop the capability to identify and respond to security incidents. This
   detective control is especially critical to networks with direct connections to
   the Internet because of relentless attacks by hackers worldwide. For example,
   Government agencies with intrusion-detection systems deployed on their
   networks have reported hundreds of potential security breaches on a daily
   basis.

We are making specific recommendations to enhance network security. NTSB
management concurred with, and has begun implementing, recommended
corrective actions. In addition, we recommend that the Acting Chairman require
the Chief Information Officer to submit monthly reports to the Managing Director
on progress made in finalizing a system inventory, developing security plans, and
accrediting systems security.


FINDINGS

NTSB Did Not Make a Strong Commitment To Implement an
Agencywide Information Security Program as Promised
In last year’s FISMA report, we made a series of recommendations to enhance
NTSB’s information security program and NTSB management agreed to take
corrective actions. During FY 2005, NTSB made little progress implementing our
recommendations. It appointed a CIO, provided security awareness training to 82
percent of its employees and specialized training to all employees with significant
security responsibility, and initiated an effort to hire a contractor to perform tasks
to meet FISMA requirements. However, most of the recommended actions have
not yet been implemented.



Report No. FI-2006- 001
                                                                                                                     6


FISMA requires each agency, through the CIO, to implement an agencywide
information security program to protect the information and information systems
that support the operations and assets of the agency. To effectively implement this
program, agencies need to develop and implement security plans, and maintain a
system inventory. As part of its responsibilities under FISMA, OMB also requires
agencies perform security certification reviews on their information systems.
However, we continue to find that these requirements have not been implemented
at NTSB.

NTSB did not:

      Have an inventory of all the information systems used to support its
      operational needs;

      Develop security plans for protecting its information systems, which should
      address rules of behavior for system use, training requirements for security
      responsibilities, personnel controls, technical controls, continuity of operations,
      incident response capabilities, and system interconnections;5

      Require information systems to be certified as adequately secured
      commensurate with operational risks before accreditation for business use; and

      Document security weaknesses and corrective actions in Plan of Actions and
      Milestones, as required by OMB.

Until an agencywide information security program is established, NTSB
management cannot assure the public that its computer systems are adequately
secured to ensure integrity, confidentiality, and availability of its safety
investigation mission.

This was because NTSB had not made a strong commitment as promised and did
not assign a high enough priority to implement an effective information security
program. During the first quarter of FY 2005, NTSB initiated an effort to award a
contract, which includes finalizing NTSB’s system inventory, developing security
policies and procedures, and conducting security certification reviews on the
selected systems. However, according to the NTSB CIO, the funding for this
contract did not get NTSB management’s approval until the end of June 2005.
NTSB awarded this contract in August and the actual contract work did not start
until September 13, 2005, almost one year later than originally planned. Without
the contract, NTSB was not able to implement the key FISMA requirements.


5
    National Institute of Standards and Technology, Guide for Developing Security Plans for Information Technology
    Systems, Special Publication 800-18 (December 1998).


Report No. FI-2006- 001
                                                                                   7


NTSB Computers Were Vulnerable to Unauthorized Access from
Both Inside and Outside of the Agency
We continue to identify security weaknesses in NTSB’s networks, such as
inadequate password protection in the Internet router, thousands of vulnerabilities
in network computers and lack of intrusion-detection and monitoring capabilities.
As a result, our staff was able to take control over the Internet router and obtained
sensitive investigation information from NTSB computers without being detected.

   Network Routers Not Properly Protected

   We reviewed configurations of 13 NTSB routers, which are used to screen
   network activities to prevent unauthorized access to NTSB’s internal network
   and direct legitimate network traffic between NTSB Headquarters and regional
   offices. Although our review showed that the NTSB routers are reasonably
   configured to protect its internal network, we found that NTSB did not use
   strong password encryption to adequately protect its routers, which could
   present a potential risk to the entire NTSB network.

   NTSB provided us with configuration files for the 13 routers. These files
   contained the encrypted passwords. However, by using basic password
   cracking software available on the Internet, we were able to crack within
   minutes the weak passwords for all 13 NTSB routers located throughout NTSB
   Headquarters and its field offices. In fact, using the decrypted passwords we
   were able to have total control (root-level access) over NTSB’s Internet router
   from anywhere in the world. As an insider, we could also gain total control to
   the other 12 routers. With root-level access to all NTSB routers, we could
   have changed configuration settings to open paths from the Internet to allow
   unauthorized entities to access NTSB computers and information stored on its
   private network.

   These vulnerabilities existed because NTSB did not comply with the
   Government security configuration requirements and industry best practice
   when applying password security in network routers. To prevent easy
   password cracking, the National Institute of Standards and Technology
   recommends Government agencies to encrypt critical passwords with a 128-bit
   algorithm or higher. However, passwords in NTSB’s routers were encrypted
   with a weaker manufacturer’s algorithm, which provided little security
   assurance and can be easily cracked with common software.

   In response to our finding, NTSB management has already begun upgrading
   security protection in its network routers.



Report No. FI-2006- 001
                                                                                                                  8


      Network Vulnerabilities Not Assessed

      According to the NTSB progress report in March 2005, NTSB took action to
      eliminate 85 percent of high and medium network vulnerabilities we identified
      last year, acquired network scanning software, and set June 30, 2005 as its
      target date for having staff trained in using this software to perform network
      vulnerability assessments. To verify the strength of NTSB’s network security,
      we performed a network vulnerability assessment on NTSB internal networks.
      Our assessment results once again demonstrated that NTSB internal networks
      are vulnerable to attacks.

      Last year, we performed a similar but more limited vulnerability check and
      found hundreds of high-risk vulnerabilities. This year, we expanded the
      vulnerability check and found more than 28,100 potential vulnerabilities (1,400
      high-risk, 1,900 medium-risk and 24,800 low-risk)6 on NTSB network
      computers, some of which were also identified last year.

      These vulnerabilities could allow insiders--NTSB employees, contractors, and
      business associates—to gain unauthorized access to NTSB business
      information stored on these computers. For example, one of the most
      commonly known vulnerabilities is weak security over the administrator’s
      account in a computer. Hackers always look for opportunities to use this
      privileged account as an entry point to gain controls over the entire computer.
      We found that among the 17 computers that we could take control over, 15 of
      them used blank passwords for the administrator account and 2 used
      “Administrator” as its password. Accordingly, hackers could easily gain total
      control (root-level access) over these computers, change computer
      configuration (setup), install malicious software, or add/change/delete all files
      stored in these computers. In fact, we did obtain sensitive investigation
      information from these computers, including real-time audio recording
      between air traffic controllers and pilots during an accident.

      Despite the effort of correcting 85 percent of the vulnerabilities we identified
      last year, NTSB continues to have a significant amount of network
      vulnerabilities because NTSB:

      • Does not have a procedure in place to ensure that its computers are
        adequately configured before being put on the networks. Six of the
        computers with blank password protection over the administrator’s account
        were put on the network during FY 2005.

6
    High-risk vulnerabilities may provide an attacker with immediate access into a computer system, such as allowing
    execution of remote commands. Medium- and low-risk vulnerabilities may provide an attacker with useful
    information, such as password files, they can then use to compromise a computer system.


Report No. FI-2006- 001
                                                                                   9



   • Has not utilized the vulnerability scanning software acquired in October
     2004. According to NTSB officials, this tool was not utilized due to lack of
     trained staff.    While the training funds were available, NTSB had
     difficulties in allocating existing personnel resources to assume this
     additional responsibility. Conducting frequent network vulnerability
     assessments is critical because new vulnerabilities, such as the ones
     exploited by computer viruses, are uncovered daily.

   Security Incident Monitoring and Response Capabilities Still Lacking

   Like last year, our unauthorized access to NTSB computers went undetected
   because NTSB has not implemented an intrusion detection system to identify
   potential security breaches on its network, as we recommended a year ago.

   Intrusion detection is the process of detecting unauthorized use of, or attack
   upon, a computer or network. Intrusion-detection systems are software or
   hardware systems that detect such misuse. The National Institute of Standards
   and Technology recommends deploying such systems as necessary additions to
   an organization's security infrastructure. This security is particularly important
   to organizations with direct connections to the Internet because of constant
   hacking attacks. For example, Government agencies with intrusion-detection
   systems deployed on their networks have reported hundreds of potential
   security breaches on a daily basis.

   Installing an intrusion-detection system is a critical step for agencies in
   developing a security incident monitoring and response capability. Knowing
   that small agencies may not have technical resources to develop this capability,
   the Office of Management and Budget (OMB) has initiated an effort for
   qualified entities (Centers of Excellence) to provide cross-agency services in
   this area. The General Services Administration is taking the lead to implement
   this effort, called the Information Security Services Line of Business. NTSB
   should consider using this service as soon as possible.

As we demonstrated, NTSB computer networks remain vulnerable. Also, the lack
of progress in implementing an agencywide information security program
continues to put the integrity, confidentiality, and availability of NTSB business
operations at risk. In our opinion, this constitutes a significant deficiency and
should be reported as a material internal control weakness on the annual FMFIA
report to OMB and Congress.




Report No. FI-2006- 001
                                                                               10


RECOMMENDATIONS
We recommend that the NTSB Acting Chairman:

1. Ensure that NTSB’s information security program receives the priority and
   funding to accomplish the following in FY 2006:

   a) Finalizing the system inventory and completing risk assessment for all
      systems in accordance with Federal Information Processing Standards 199.

   b) For high-risk systems, completing security certification and accreditation
      reviews and documenting planned actions and milestones for remediation.

   c) For the remaining medium- and low-risk systems, establishing a timetable
      to complete security certification and accreditation reviews.

2. Require the Chief Information Officer to submit monthly reports to the
   Managing Director describing progress made in implementing the following
   critical elements of an agencywide information security program.

   a) Finalizing the system inventory.

   b) Issuing guidance for system owners to develop security plans.

   c) Assisting senior management in accrediting systems security.

   d) Implementing a mechanism to track and prioritize security weakness
      correction efforts, as required by OMB.

   e) Ensuring all employees receive security awareness training annually.

3. Direct the Chief Information Officer to take immediate actions to enhance
   network security by:

   a) Enhancing security protection of passwords on network routers, such as
      using stronger password encryption.

   b) Developing procedures to ensure computers are properly configured before
      being implemented for production use.

   c) Providing proper training and performing vulnerability assessments of all
      network computers with the acquired scanning tool on a regular basis.

   d) Establishing    network   security   incidents   monitoring   and   response
      capabilities.



Report No. FI-2006- 001
                                                                               11


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
A draft of this report was provided to the NTSB Acting Chairman for comments
on September 23, 2005. The Acting Chairman responded on October 7, 2005, and
concurred with all recommendations (see Appendix). The actions planned by
NTSB are reasonable and should provide a solid foundation for implementing an
effective information security program. We will continue monitoring NTSB’s
progress in implementing these recommendations.

NTSB’s response also included comments regarding our characterization of the
vulnerability of its Internet connections. We acknowledge that NTSB may have
other protections built into its overall network infrastructure—protections that
make system intrusion by the general public unlikely. However, as noted in the
report, we base our conclusion about NTSB’s systems’ vulnerability on the
cumulative risk inherent in the systems’ present architecture. By gaining root-
level access to 13 NTSB routers, we could have changed configuration settings to
open paths from the Internet to allow unauthorized entities to access NTSB
computers and information stored on its private network. Despite the presence of
a firewall between the routers, the ability to reconfigure these routers to allow
unauthorized network traffic through the firewall may not be difficult when
attempted by those with sophisticated knowledge of computers.

We appreciate the courtesies and cooperation of National Transportation Safety
Board representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-1992 or Rebecca C. Leng, Assistant Inspector
General for Information Technology and Computer Security, at (202) 366-1488.

Sincerely,




Theodore P. Alves
Principal Assistant Inspector General for
 Auditing and Evaluation

Enclosures (3)




Report No. FI-2006- 001
                                                                        Enclosur e 1
                                                                        Page 1 of 4



ENCLOSURE 1. OFFICE OF INSPECTOR GENERAL INPUT TO
FISMA REPORT
This is the second year that NTSB has been required to comply with FISMA,
which requires independent evaluation of agencies’ information security
programs. NTSB is responsible for investigating accidents in all transportation
modes to determine their cause, and for recommending changes to improve safety
and reduce the likelihood and consequences of future accidents.

Responding to FISMA requirements, the Department of Transportation’s Office of
Inspector General (OIG) performed an audit of NTSB’s information security
program last year for the first time. We reported to NTSB that its information
security program should be reported to OMB as a material weakness under the
FMFIA and recommended immediate corrective action. NTSB management
agreed to take aggressive action, including appointing a Chief Information Officer
to lead the effort. While a Chief Information Officer was appointed last
September, NTSB is behind in implementing the planned actions to enhance its
information security program. Since only limited progress has been made, we
performed a limited review focusing on NTSB network security.

Our independent evaluation continues to identify significant security weaknesses
in NTSB’s networks, such as inadequate password protection in the Internet
router, thousands of vulnerabilities in network computers, and lack of intrusion-
detection capabilities. These security weaknesses enabled us to gain unauthorized
access to sensitive information, including real-time audio recording between air
traffic controllers and pilots during an accident.

The lack of progress in implementing an agencywide information security
program continues to put the integrity, confidentiality, and availability of NTSB
business operations at risk. In our opinion, this constitutes a significant deficiency
and should be reported as a material internal control weakness on the annual
FMFIA report to OMB and the Congress.                    We are making specific
recommendations to enhance network security. NTSB management concurred
with, and has begun implementing, recommended corrective actions. Until an
agencywide information security program is established, NTSB management
cannot assure the public that its computer systems are adequately secured to
ensure the integrity, confidentiality, and availability of its safety investigation
mission.




Report No. FI-2006- 001
                                                                                                                                                                                                                                                 Enclosure 1
                                                                                                                                                                                                                                                 Page 2 of 4



                                                                                         Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                             Agency Name: National Transportation Sefety Board




                                                                                                                Question 1 and 2



1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).



             To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
             1) Continue to use NIST Special Publication 800-26, or,
             2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53


             Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the
             requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.




2. For each part of this question, identify actual performance in FY 05 by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the number of systems
which have completed the following: have a current certification and accreditation , a contingency plan tested within the past year, and security controls tested within the past year.




                                                                                                   Question 1                                                                                  Question 2
                                                                        a.                             b.                             c.                            a.                          b.                         c.
                                                               FY 05 Agency Systems             FY 05 Contractor            FY 05 Total Number of         Number of systems          Number of systems for Number of systems for which
                                                                                                    Systems                        Systems              certified and accredited     which security controls contingency plans have been
                                                                                                                                                                                      have been tested and     tested in accordance with
                                                                                                                                                                                    evaluated in the last year    policy and guidance




                                    FIPS 199 Risk Impact         Total         Number          Total        Number                        Number         Total        Percent of       Total       Percent of
Bureau Name                                 Level               Number        Reviewed        Number       Reviewed       Total Number   Reviewed       Number          Total         Number         Total       Total Number Percent of Total
NTSB                                   High                                                                                          0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Not Categorized                                                 1              0              1              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                   Sub-total                             0               0             1              0              1              0            0     #DIV/0!                 0    #DIV/0!                 0     #DIV/0!
Bureau                                 High                                                                                          0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                   Sub-total                             0               0             0              0              0              0            0     #DIV/0!                 0    #DIV/0!                 0     #DIV/0!
Bureau                                 High                                                                                          0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                   Sub-total                             0               0             0              0              0              0            0     #DIV/0!                 0    #DIV/0!                 0     #DIV/0!
Bureau                                 High                                                                                          0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                   Sub-total                             0               0             0              0              0              0            0     #DIV/0!                 0    #DIV/0!                 0     #DIV/0!
Bureau                                 High                                                                                          0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                   Sub-total                             0               0             0              0              0              0            0     #DIV/0!                 0    #DIV/0!                 0     #DIV/0!
Bureau                                 High                                                                                          0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                   Sub-total                             0               0             0              0              0              0            0     #DIV/0!                 0    #DIV/0!                 0     #DIV/0!
Bureau                                 High                                                                                          0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                   Sub-total                             0               0             0              0              0              0            0     #DIV/0!                 0    #DIV/0!                 0     #DIV/0!
Bureau                                 High                                                                                          0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Moderate                                                                                      0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Low                                                                                           0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                       Not Categorized                                                                               0              0                  #DIV/0!                      #DIV/0!                       #DIV/0!
                                   Sub-total                             0               0             0              0              0              0            0     #DIV/0!                 0     #DIV/0!                   0    #DIV/0!
Agency Totals                          High                              0               0             0              0              0              0            0     #DIV/0!                 0     #DIV/0!                   0    #DIV/0!
                                       Moderate                          0               0             0              0              0              0            0     #DIV/0!                 0     #DIV/0!                   0    #DIV/0!
                                       Low                               0               0             0              0              0              0            0     #DIV/0!                 0     #DIV/0!                   0    #DIV/0!
                                       Not Categorized                   0               0             1              0              1              0            0     #DIV/0!                 0     #DIV/0!                   0    #DIV/0!
                                   Total                                 0               0             1            0                1              0            0     #DIV/0!                 0     #DIV/0!                   0    #DIV/0!
                                                                                                                   Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.



                                   The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the
                                   agency or other organization on behalf of the agency meet the requirements of FISMA, OMB policy and NIST guidelines,
                                   national security policy, and agency policy. Self-reporting of NIST Special Publication 800-26 requirements by a contractor
                                   or other organization is not sufficient, however, self-reporting by another Federal agency may be sufficient.

                                   Response Categories:
                3.a.                                                                                                                                                 - Rarely, for example, approximately 0-50% of the time"
                                        - Rarely, for example, approximately 0-50% of the time
                                        - Sometimes, for example, approximately 51-70% of the time
                                        - Frequently, for example, approximately 71-80% of the time
                                        - Mostly, for example, approximately 81-95% of the time
                                        - Almost Always, for example, approximately 96-100% of the time




Report No. FI-2006-001
                                                                                                                                                                                                                                                 Enclosure 1
                                                                                                                                                                                                                                                 Page 3 of 4

                                     The agency has developed an inventory of major information systems (including major national security systems) operated
                                     by or under the control of such agency, including an identification of the interfaces between each such system and all other
                                     systems or networks, including those not operated by or under the control of the agency.

                                     Response Categories:
                3.b.                      - Approximately 0-50% complete                                                                                                  - Approximately 0-50% complete
                                          - Approximately 51-70% complete
                                          - Approximately 71-80% complete
                                          - Approximately 81-95% complete
                                          - Approximately 96-100% complete




                3.c.                 The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                       no



                                     The OIG generally agrees with the CIO on the number of information systems
                3.d.                 used or operated by a contractor of the agency or other organization on behalf of the agency.                                                                      no




                3.e.                 The agency inventory is maintained and updated at least annually.                                                                                                  no




                 3.f.                The agency has completed system e-authentication risk assessments.                                                                                                 no


                                                                                                                     Question 4




Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the
following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time




                                     The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information
                4.a.                                                                                                                                                - Rarely, for example, approximately 0-50% of the time"
                                     systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the agency.




                                     When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop,
                4.b.                                                                                                                                                - Rarely, for example, approximately 0-50% of the time"
                                     implement, and manage POA&Ms for their system(s).




                                     Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation
                4.c.                                                                                                                                                - Rarely, for example, approximately 0-50% of the time"
                                     progress.




                4.d.                 CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                   - Rarely, for example, approximately 0-50% of the time"


                4.e.                 OIG findings are incorporated into the POA&M process.                                                                          - Rarely, for example, approximately 0-50% of the time"


                                     POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a
                 4.f.                                                                                                                                               - Rarely, for example, approximately 0-50% of the time"
                                     timely manner and receive appropriate resources

Comments: NTSB did not meet key FISMA requirements during FY 2005, such as having a complete system inventory, performing certification and accreditation (C&A) on the identified systems, reporting security
weakness and corrective action plan (POA&M) to OMB, and developing security plan and related policies. NTSB hired a contractor in September 2005 to start implementing key FISMA requirements.



                                                                                                                     Question 5



OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to existing policy, guidance, and
standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This
includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
risk assessments and security plans .




                                     Assess the overall quality of the Department'
                                                                                 s certification and accreditation process.

                                     Response Categories:
                                          - Excellent
                                          - Good                                                                                                                    - Failing
                                          - Satisfactory
                                          - Poor
                                          - Failing



Comments: NTSB has not performed security certification reviews on any of its information systems. NTSB hired a contractor to finalize its system inventory and will perform C&A reviews on selected systems.




Report No. FI-2006-001
                                                                                                                                                                                         Enclosure 1
                                                                                                                                                                                         Page 4 of 4
                                                                  Section B: Inspector General. Question 6, 7, 8, and 9.

                                                                                       Agency Name:


                                                                                        Question 6

                        Is there an agency wide security configuration policy?
       6.a.                                                                                                                                             No
                        Yes or No.

                        Comments: NTSB currently does not have an agency wide security configuration policy. However, a desktop configuration standard (Windows XP) is
                        under development. The configuration guides for other software products will be established by the NTSB contractor.

                        Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
       6.b.             Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on
                        the systems running the software.




                                                                                                                           Approximate the extent of implementation of the security
                                                                                                                           configuration policy on the systems running the software.

                                                                                                                           Response choices include:
                                                                                                                           - Rarely, or, on approximately 0-50% of the
                                                                                                                             systems running this software
              Product                                                                                                      - Sometimes, or on approximately 51-70% of
                                                                                                                             the systems running this software
                                                                                                                           - Frequently, or on approximately 71-80% of
                                                                  Addressed in agencywide                                    the systems running this software
                                                                          policy?             Do any agency systems        - Mostly, or on approximately 81-95% of the
                                                                                                run this software?           systems running this software
                                                                                                                           - Almost Always, or on approximately 96-100% of the
                                                                            Yes, No,                                       systems running this software
                                                                            or N/A.                   Yes or No.
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Windows XP Professional
                                                                                 No                      Yes               running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of   the systems
              Windows NT
                                                                                 No                      Yes               running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of   the systems
              Windows 2000 Professional
                                                                                 No                      Yes               running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of   the systems
              Windows 2000 Server
                                                                                 No                      Yes               running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of   the systems
              Windows 2003 Server
                                                                                 No                      Yes               running this software
              Solaris                                                            No                      No
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              HP-UX                                                              No                      Yes               running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
              Linux                                                              No                      Yes               running this software
                                                                                                                                 - Rarely, or, on approximately 0-50% of the systems
               Cisco Router IOS                                                  No                      Yes               running this software
              Oracle                                                             No                      No

              Other. Specify:
Comments: OIG network assessment identified many security weaknesses. However, NTSB hired a contractor to establish configuration management
standards.


                                                                                        Question 7


Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

                        The agency follows documented policies and procedures for identifying and reporting
       7.a.             incidents internally.                                                                                                           No
                        Yes or No.
                        The agency follows documented policies and procedures for external reporting to law
       7.b.             enforcement authorities.                                                                                                        No
                        Yes or No.
                        The agency follows defined procedures for reporting to the United States Computer
       7.c.             Emergency Readiness Team (US-CERT). http://www.us-cert.gov                                                                      No
                        Yes or No.
Comments: NTSB has no incident reporting policies and procedures internally or externally. However, NTSB hired a contractor to develop policies and
procedures on incident response.


                                                                                        Question 8

                        Has the agency ensured security training and awareness of all employees, including
                        contractors and those employees with significant IT security responsibilities?

                        Response Choices include:
                        - Rarely, or, approximately 0-50% of employees have sufficient training
                                                                                                                            - Mostly, or approximately 81-95% of employees have
         8               - Sometimes, or approximately 51-70% of employees have sufficient training                        sufficient training
                         - Frequently, or approximately 71-80% of employees have sufficient training
                         - Mostly, or approximately 81-95% of employees have sufficient training
                         - Almost Always, or approximately 96-100% of employees have sufficient training




                                                                                        Question 9



                        Does the agency explain policies regarding peer-to-peer file sharing in IT security
         9              awareness training, ethics training, or any other agency wide training?                                                         Yes
                        Yes or No.




Report No. FI-2006-001
                                                                    Enclosur e 2




ENCLOSURE 2. SCOPE AND METHODOLOGY
To fulfill the requirements under FISMA, we reviewed the NTSB information
security program. We also provided input to NTSB’s FISMA report by answering
questions specified by OMB.

We interviewed the key network administration and management officials in the
Office of Research and Engineering to gather information on implementation
status of NTSB’s information security program. Based on the collected
information, we provided answers to OMB’s questions on FISMA reporting. By
using commercial scanning software, we performed a limited vulnerability
assessment of NTSB private networks, dial-up connections and configuration of
NTSB routers. Due to time constraints, we performed limited penetration tests by
exploiting some of the identified vulnerabilities.

We performed our work between July and September 2005 at NTSB Headquarters
in Washington, DC. The performance audit was conducted in accordance with the
Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States, and included such tests as we
considered necessary to provide reasonable assurance of detecting abuse or illegal
acts.




Report No. FI-2006- 001
                                                    Enclosur e 3




ENCLOSURE 3. MAJOR CONTRIBUTORS TO THIS REPORT


   Name                      Title

   Rebecca C. Leng           Assistant Inspector General for
                              Information Technology and
                              Computer Security

   Edward Densmore           Program Director

   Dr. Ping Z. Sun           Project Manager

   John M. Johnson           Senior IT Specialist

   Aaron Nguyen              Computer Scientist

   Michael P. Fruitman       Communications Adviser




Report No. FI-2006- 001
                                                                          Page 1 of 5




APPENDIX. MANAGEMENT COMMENTS


                                       National Transportation Safety Board
                                                          Washington, D.C. 20594

                                                            October 7, 2005
Office of the Chairman



Mr. Theodore P. Alves
Principal Assistant Inspector General for
 Auditing and Evaluation
U.S. Department of Transportation
400 7th Street, SW
Washington, DC 20590

Dear Mr. Alves:

        Thank you for the opportunity to provide comments on the draft report of your
follow-up review of the National Transportation Safety Board’s information security
program and network security. We do not dispute the observation that the development
of the NTSB’s information security program has not progressed as rapidly as we had
hoped. We have, however, devoted considerable resources to this process and are
committed to its completion.

      We concur with the report’s conclusion that the Safety Board’s lack of a formal
agency-wide information security program represents a material internal control
weakness, and we have reflected that conclusion in our report to Office of Management
and Budget and to Congress under the Federal Manager’s Financial Integrity Act
(FMFIA) of 1982.

       If you have any questions, please contact Mr. Joseph Osterman, Managing
Director, at (202) 314-6060.

                                                          Sincerely,



                                                          Mark V. Rosenker
                                                          Acting Chairman


Enclosure



Report No. FI-2006-001
                                                                    Page 2 of 5


                                ENCLOSURE


DOT IG RECOMMENDATIONS:

Recommendation 1: Ensure that NTSB’s information security program receives
the priority and funding to accomplish the following in FY 2006:
       a) Finalizing the system inventory and completing risk assessment for all
           systems in accordance with Federal Information Processing
           Standards 199.
           Response: Concur. The system inventory and FIPS 199 risk assessment
           for all systems will be completed on 10-31-05.

      b) For high-risk systems, completing security certification and
         accreditation reviews and documenting planned actions and
         milestones for remediation.
         Response: Concur. If the 10-31-05 final assessment identifies any
         high-risk systems, defined as systems which the loss of confidentiality,
         integrity, or availability of the system could be expected to have a
         severe or catastrophic effect on organizational operations,
         organizational assets, or individuals, the NTSB will complete a plan
         with milestones for remediation for any high-risk system by November
         30, 2005.

      c) For the remaining medium- and low-risk systems, establishing a
         timetable to complete security certification and accreditation reviews.
         Response: Concur. A plan of action with milestones for the
         accomplishment of certification and accreditation for all remaining
         systems and major applications will be completed by January 9, 2006.

Recommendation 2: Require the Chief Information Officer to submit monthly
reports to the Managing Director describing progress made in implementing the
following critical elements of an agency wide information security program.
       a) Finalizing the system inventory,
       b) Issuing guidance for system owners to develop security plans,
       c) Assisting senior management in accrediting systems security,
       d) Implementing a mechanism to track and prioritize security weakness
           correction efforts, as required by OMB;
       e) Ensuring all employees receive security awareness training annually.

      Response: Concur. The CIO will report daily to the Managing Director on
      progress until October 31, 2005, and then monthly thereafter.
                 i. The system inventory will be completed by October 31, 2005.
                ii. Security plan guidance will be completed by January 9, 2006.

Report No. FI-2006-001
                                                                        Page 3 of 5


                iii. A plan to accredit systems security will be completed by
                     September 30, 2006.
                iv. A mechanism to track and prioritize security weakness
                     correction efforts will be deployed by May 31, 2006.
                 v. All employees will complete training for calendar year 2005
                     by October 31, 2005. The NTSB training officer will prepare
                     a plan to ensure that all employees receive security awareness
                     training annually, by December 31, 2005.

Recommendation 3: Direct the Chief Information Officer to take immediate
actions to enhance network security by:
    a) Enhancing security protection of passwords on network routers, such as
       using stronger password encryption;
       Response: Concur.

      Following the IG’s audit, the NTSB configured the Internet router with
      vendor provided strong encryption per NIST guidance (Router Security
      Configuration Guide v1.1b, 12-05-2003).

      The NTSB will take the following actions as established by NIST
      guidelines and standards by October 20, 2005:

          o   Shutdown all unneeded services
          o   Apply additional access filters to restrict remote access and attacks
          o   Limit remote management to internal, encrypted sessions only
          o   Implement router logging capability

   b) Developing procedures to ensure computers are properly configured
      before being implemented for production use;
      Response: Concur. An interim procedure will be completed by October
      20, 2005 and a final procedure by December 5, 2005.

   c) Providing proper training and performing vulnerability assessments of all
      network computers with the acquired scanning tool on a regular basis;
      Response: Concur. The Chief Information Security Officer and his backup
      will receive scanning tool training or if appropriate training is unavailable,
      a contractor will provide scanning services by December 24, 2005. A plan
      for periodic vulnerability scanning will be completed by October 13, 2005.

   d) Establishing network security incidents monitoring and response
      capabilities.
      Response: Concur. The NTSB will complete a plan and policy for network
      security monitoring and response capabilities, including an assessment of
      alternative reporting, by December 5, 2005.

Report No. FI-2006-001
                                                                    Page 4 of 5




DOT IG RECOMMENDATIONS:

SCHEDULE

  October 1, 2005:       Following the IG’s audit, the NTSB configured the
                         Internet router with vendor provided strong encryption
                         per NIST guidance (Router Security Configuration
                         Guide v1.1b, 12-05-2003).

  October 7, 2005:       The CIO will report daily to the Managing Director on
                         progress until October 31, 2005, and then monthly
                         thereafter.

  October 20, 2005:      The NTSB will take the following actions as
                         established by NIST guidelines and standards:

                            1. Shutdown all unneeded services
                            2. Apply additional access filters to restrict remote
                               access and attacks
                            3. Limit remote management to internal, encrypted
                               sessions only
                            4. Implement router logging capability

  October 31, 2005:      The system inventory and FIPS 199 risk assessment
                         for all systems will be completed.

  October 31, 2005:      The system inventory will be completed.

  October 31, 2005:      All employees will complete training for calendar year
                         2005.

  October 31, 2005:      A plan for periodic vulnerability scanning will be
                         completed.

  November 30, 2005:     If the 10-31-05 final assessment identifies any high-
                         risk systems, defined as systems which the loss of
                         confidentiality, integrity, or availability of the system
                         could be expected to have a severe or catastrophic
                         effect on organizational operations, organizational
Report No. FI-2006-001
                                                                     Page 5 of 5


                         assets, or individuals, the NTSB will complete a plan
                         with milestones for remediation for any high-risk
                         system.

  December 5, 2005:      An interim procedure will be completed.

  December 5, 2005:      The NTSB will complete a plan and policy for network
                         security monitoring and response capabilities,
                         including an assessment of alternative reporting.

  December 24, 2005:     The Chief Information Security Officer and his backup
                         will receive scanning tool training or if appropriate
                         training is unavailable, a contractor will provide
                         scanning services.

  December 31, 2005:     The NTSB training officer will prepare a plan to
                         ensure that all employees receive security awareness
                         training annually.

  January 9, 2006:       A plan of action with milestones for the
                         accomplishment of certification and accreditation for
                         all remaining systems and major applications will be
                         completed.

  January 9, 2006:       Security plan guidance will be completed.

  May 31, 2006:          A mechanism to track and prioritize security weakness
                         correction efforts will be deployed.

  September 30, 2006:    A plan to accredit systems security will be completed.




Report No. FI-2006-001
